la
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of App. Fed. Cir.
Rule 32.1.
United States Court of Appeals, Federal Circuit.
James Thomas RYAN, Petitioner
v.
DEPARTMENT OF DEFENSE, Respondent
2018-1524
Decided: February 13,2019
Petition for review of the Merit Systems Protection
Board in No. DC-0752-17-0673-1-1.
Attorneys and Law Firms
John Silverfield, Garden City, NY, for petitioner.
P. Davis Oliver. Commercial Litigation Branch, Civil
Division, United States Department of Justice,
Washington, DC, for respondent. Also represented by
Elizabeth Marie Hosford, Robert Edward Kirschman,
Jr.. Joseph H. Hunt: Elizabeth Pavlick. Office of
General Counsel, Washington Headquarters Services &
Pentagon Force Protection Agency, United States
Department of Defense, Washington, DC.

2a
Before Lourie. Bryson, and Moore. Circuit Judges.
Opinion
Per Curiam.
James Ryan appeals from a decision of the Merit
Systems Protection Board (“the Board”) sustaining
three charges against Ryan for lack of candor, conduct
unbecoming a police officer, and unauthorized use of a
computer, and removing him from service as a police
officer in the Pentagon Force Protection Agency
(“PFPA”). See Ryan v. Dep’t of Def, No. DC-0752-170673-1-1 (M.S.P.B. Nov. 15, 2017). Ryan disputes
whether substantial evidence supports each of the
conclusions of the Board’s Administrative Judge (“AJ”)
with respect to these charges, and he further argues
that the AJ failed to find a nexus between the adverse
action and his service and that the AJ’s action violated
his rights under the Due Process Clause and the
Whistleblower Protection Act (“WPA”). Because we
conclude that substantial evidence supports the AJ’s
findings and that Ryan’s other arguments lack merit,
we affirm.
I. BACKGROUND
Ryan was employed as a police officer with the
PFPA from February 2009 until his removal on June 6,
2017. In 2015, Ryan filed a complaint with the Equal
Employment Opportunity Commission (“EEOC”),
concerning his employment with the PFPA, which is
not at issue in this appeal. In the course of that
proceeding, Ryan was' required to sign a Notice of
Rights and Responsibilities for the EEOC complaint

3a
process. By signing the notice, Ryan was given access
to a Report of Investigation (“ROI”) from the EEOC,
which contained the personnel file of another police
officer (“SV”). The ROI included the following warning:
v. The ROI contains personal data and is to be
treated in a confidential manner. You may not
show your copy of the ROI, in whole or in
part, to a third party except your designated
representative. Violations of privacy safeguards
may result in disciplinary action, a fine of up to
$5,000, or both (Public Law 93-5761).
-

J.A. 148.
Ryan did not heed this warning. Instead, he sent
a copy of SV’s personnel file to eight members of the
PFPA, as well as the PFPA Office of Professional
Responsibility, as an attachment to an October 12, 2016,
memorandum in which he asserted that SV received a
fraudulent cash bonus of $2,050 from a sergeant “in
exchange for allowing [SV’s duty post] to become a
location for unauthorized congregating, food delivery,
and eating to take place.” J.A. 417. Ryan had previously
reported SV and others on separate occasions for such
unauthorized congregating around SV’s duty post.
In the memorandum, Ryan denigrated SV’s
performance based on Ryan’s own observations, SV’s
personnel file, and records of SV’s incident reports
stored in the PFPA’s Record Management System
which Ryan had
accessed.
(“RMS”)
However, Ryan never provided any evidence of this
purported quid pro quo beyond his complaints about
SV’s performance and allegedly undeserved bonus and
positive evaluation from the sergeant.2

4a
In response, the PFPA issued a notice of
proposed removal to Ryan on February 7, 2017. The
PFPA asserted that the removal was justified because,
among other charges, Ryan: (1) lacked candor by
making an untrue and unsupported allegation about SV
and the sergeant; (2) violated the law and departmental
policy by distributing SV’s personnel file, which is
conduct unbecoming a police officer; and (3) misused a
government computer by accessing SV’s police reports
in the RMS system without authorization. The deciding
official (“DO”) sustained the charges at issue in this
appeal and removed Ryan from service on June 6,2017.
Ryan then appealed to the Board. The AJ
credited the DO’s testimony and therefore sustained
the charges and Ryan’s removal. The AJ also
rejected Ryan’s affirmative defense under the WPA.
While Ryan did not present an argument that his
removal violated his due process rights, the AJ credited
certain statements at the hearing as raising the issue.
Specifically, Ryan alleged at the hearing that the DO’s
personal
knowledge
that
another
of Ryan’s
accusations—that two other PFPA officers abuse
alcohol while off-duty—was baseless constituted ex
parte information to which Ryan must be given
notice. See Stone v. FDIC. 179 F.3d 1368. 1376-77 (Fed.
Cir, 1999) (holding that a DO’s consideration of an ex
parte communication may violate an employee’s right to
due process where it introduces new and material
evidence). The AJ rejected Ryan’s due process
argument because the specification directly concerning
this accusation was withdrawn by the PFPA and, with
respect
to
the
sustained
charges,
the ex
parte information was both immaterial and cumulative
to the remainder of the record.

5a
The AJ’s decision became the decision of the Board
because Ryan did not appeal to the full Board, which at
that time lacked a quorum. This appeal followed. We
have jurisdiction under 28 U.S.C. § 1295(a)(9).
II. DISCUSSION
The scope of our review of an appeal from a
decision of the Board is limited. We must affirm the
Board’s decision unless we find it to be “(1) arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law; (2) obtained without procedures
required by law, rule, or regulation having been
followed; or (3) unsupported by substantial evidence.” 5
U.S.C. § 7703(c). A finding is supported by substantial
evidence if a reasonable mind might accept the
evidence as adequate to support the finding. Consol.
Edison Co. v. NLRB. 305 U.S. 197. 229. 59 S.Ct. 206. 83
L.Ed. 126 (1938). Credibility determinations are within
the discretion of the Board ' and are “virtually
unreviewable” on appeal. King v. HHS. 133 F.3d 1450.
1453 (Fed. Cir. 1998). The burden of establishing
reversible error in a Board decision rests upon the
petitioner. See Harris v. Dep’t of Veterans Affairs. 142
F.3d 1463.1467 (Fed. Cir. 1998).
We address Ryan’s challenges to the sufficiency
of the evidence, his due process challenge, and his
affirmative defense under the WPA in turn.
A.
Ryan raises many arguments that the AJ’s
decision to sustain all three charges was unsupported
by substantial evidence. Ryan’s principal argument
with respect to the lack of candor charge is that neither
the DO nor the AJ ever made a finding

6a
that Ryanintended to deceive the recipients of his
memorandum, or that he knew his allegation was
incorrect. Further, Ryan contends, our precedent
confines lack of candor charges to investigations or
inquiries, rather than unsupported allegations. See,
e.g., Ludlum v. Dep’t of Justice. 278 F.3d 1280. 1284
(Fed. Cir. 2002).
The government responds that the concept of
lack of candor is defined more broadly by our case law
and is not restricted, as Ryan would have it, to
statements made during investigations or inquiries. In
the government’s view, Ryan lacked candor because he
knew both that he had no evidence to support his
assertion of a quid pro quo and that he could not
support his allegation that SV’s evaluation was
“fraudulently inflated” because he admitted that he had
never read SV’s Officer Performance Record.
We agree with the government because our
precedent, including 'Ltidtum, is clear that lack of
candor is a “flexible concept whose contours and
elements depend upon the particular context and
conduct involved.” Id. at 1284 (analogizing -lack of
candor to “the failure to state a material fact [in a
securities registration statement] ... necessary to make
the statements therein not misleading” actionable
under the Securities Act of 1933). Hence, we
reject Ryan’s argument that lack of candor can only be
charged where an employee failed to be forthright in
the course of an investigation or inquiry. In
fact, Ludlum’s holding that a lack of candor may be
charged where an employee fails to state a material fact
necessary to make a statement not misleading is
strikingly applicable to Ryan’s failure to provide any
evidence in support of his provocative assertion.

7a
We further determine that Ryan has not shown
that the AJ’s finding was unsupported by substantial
evidence. Ryan argues that neither the DO nor the AJ
made the requisite finding of an intent to deceive, and
in fact conceded that Ryan may have believed that SV
received an inflated rating. But Ryan’s opinions about
SV’s performance are ultimately beside the
point. Ryan chose to assert the existence of a quid pro
quo between the sergeant and SV without any
evidence. While Ryan now argues that his intuition as a
police officer provides the requisite evidence, he did not
so qualify his allegation in his memorandum.
Instead, Ryan represented the alleged exchange as
fact, and the AJ reasonably found that by making an
allegation he knew was unsupported, Ryan intended to
deceive the recipients of the memorandum. Thus,
substantial evidence supports the AJ’s finding
that Ryan lacked candor.
Ryan also argues that the conduct unbecoming
charge was unsupported by substantial evidence
because disseminating SV’s personnel file was not
conduct
unbecoming
a
police
officer,
which Ryan alleges is defined in PFPA’s internal
regulations as including “that which impairs the
operation or efficiency of the department or
employees.” Appellant Br. 26. In addition, Ryan asserts
that the conduct unbecoming charge cannot lie because
the DO admitted that Ryan’s position as a police officer
did not affect his analysis of the charge.
Finally, Ryan argues that he was not aware that he
was unauthorized to distribute SV’s personnel file.
In response, the government argues that a
conduct unbecoming charge can be proven without
reference to a specific regulation and that the AJ
correctly found that Ryan’s conduct renders him

8a
unsuitable to remain a PFPA police officer. The
government also contends that Ryan was aware that he
was unauthorized to distribute SV’s personnel file.
We
find Ryan’s
arguments
unavailing. Ryan signed an EEOC notice which clearly
warned him that distribution of SV’s personnel file was
a violation of the Privacy Act of 1974, and PFPA Order
1000.3 makes clear that “[violation of any law,
regulation or order may be grounds for disciplinary
action.” J.A. 552. Both the DO and the AJ were thus
entitled to credit testimony that Ryan’s cavalier
attitude toward the Privacy Act and EEOC rules
rendered him a liability to the PFPA, where officers
must abide by similar laws to perform their jobs.
Furthermore, the record is clear that Ryan was aware
that he was barred from sharing SV’s personnel
file. SeeJ.A. 1290 (“[The EEO Director] said you cannot
share other people’s information.”). Thus, Ryan has not
shown that the AJ’s finding that he committed conduct
unbecoming a police officer was unsupported by
substantial evidence.
With respect to the third charge, unauthorized
use of a government computer, Ryan argues that his
searching SV’s police reports was authorized because
he generally has access to the RMS system and
allegedly was told during training that he could search
the system “merely to satisfy [his] curiosity.” J.A. 1365.
Thus, in Ryan’s view, the government never showed
that his use of a government computer to search SV’s
police reports was unauthorized.
The government responds that the AJ was
entitled to credit the DO’s testimony that Ryan’s use of
the RMS system to assist his personal investigation
into SV was unauthorized because it had nothing to do
with his duties as a police officer. The government

9a
further argues that the AJ had substantial evidence to
find that Ryan was not allowed to search the system
just to satisfy his curiosity.
We agree with the government and conclude
that the AJ was entitled to credit the DO’s testimony.
As Ryan confirmed, the RMS system requires an
officer to agree that his use of the system is authorized
and Ryan admitted that he agreed in order to log in to
the RMS system. Thus, the AJ’s finding
that Ryan misused a government computer was
supported by substantial evidence.
Ryan finally argues that the DO failed to show
the required nexus between these charges and Ryan’s
ability to perform his job satisfactorily. Ryan contends
that the DO based the finding of nexus on his
perception of Ryan’s trustworthiness during the appeal
process, rather than on the grounds themselves.
The government responds that the AJ properly
credited the DO’s testimony that the charges
themselves, rather than Ryan’s conduct on appeal,
showed Ryan’s untrustworthiness and poor judgment.
The government further points to the DO’s
consideration of Giglio v. United States. 405 U.S. 150. 92
S.Ct. 763. 31 L.Ed.2d 104 (1972). for the proposition
that the lack of candor charge in particular
implicates Ryan’s ability to testify in court. The
government therefore argues that Ryan’s lack of
candor charge impairs his ability to perform an
essential function of his job.
We conclude that Ryan has failed to show that
the AJ’s finding of a nexus between the charges
and Ryan’s ability to perform his job was unsupported
by substantial evidence. The AJ was entitled to credit
the DO’s testimony, which as a whole clearly
demonstrates a thoughtful rationale why the charges

10a
against Ryan, not his conduct during the appeal
process, prevent him from fulfilling the duties of a
PFPA police officer. See J.A. 1431 (explaining that the
DO found in his decision on Ryan’s removal
that Ryan “can’t
be
trusted
with
sensitive
information,” “has poor judgment,” and “can’t be
trusted to testify,” creating Gialio problems).
B.
Ryan next raises two arguments that his due
process rights were violated in the course of the
proceedings before the AJ: (1) he was not able to make
a meaningful reply because the DO admitted that he did
not consider one of the earlier disclosures Ryan made
concerning the improper activity at SV’s duty post,
even though Ryan mentioned it in his oral reply; and (2)
the DO admitted that he formed an impression
of Ryan as dishonest because he had personal
knowledge that led him to disbelieve Ryan’s accusation
that two other officers abused alcohol off-duty. While
the relevant charge was withdrawn by the
agency, Ryan argues that the DO’s personal knowledge
should have been disclosed as new and material ex
parte information before Ryan made his reply to the
DO and that the AJ did not have substantial evidence
to conclude that the information was not new and
material to the charges at issue.
The government responds that the first
argument was not made to the AJ and is waived. It
argues that the second argument was properly rejected
by the AJ because the ex parte information was not
new and material and did not affect the DO’s decision to
sustain other charges against Ryan.
Ryan failed to make his first argument to the
AJ, and it is therefore waived. See Wallace v. Dep’t of

11a
the Air Force. 879 F.2d 829. 832 (Fed. Cir. 1989). With
respect to the second argument, we agree with the
government that substantial evidence supports the
AJ’s finding that the ex parte information considered by
the DO was not new or material and therefore did not
deprive Ryan of his due process right.
Ryan is a federal employee as defined by 5
U.S.C. §§ 7501.7511(a)(1). He therefore has a
constitutionally-protected property interest in his
employment with the federal government. See Kina v.
Alston. 75 F.3d 657. 661 (Fed. Cir. 1996). Before being
deprived of this property interest, a public employee
has a right under the Due Process Clause to be given
“notice and an opportunity to respond.” Cleveland Bd.
of Educ. v. Loudermill. 470 U.S. 532. 546. 105 S.Ct.
1487. 84 L.Ed.2d 494 (1985). We have held that an ex
parte communication that introduces “new and material
information to the [DO] will violate the due process
guarantee of notice.” Stone. 179 F.3d at 1377. In
deciding whether information is new and material, we
look to several factors, including: (1) whether the ex
parte communication merely introduces “cumulative”
information or new information; (2) whether the
employee knew of the error and had a chance to
respond
to
it;
and
(3)
whether
the ex
parte communications were of the type likely to result
in undue pressure upon the DO to rule in a particular
manner. Id.
Here, the government is correct that substantial
evidence supports the AJ’s finding that the ex
parte information was not new or material to the
charges at issue. Ryan argues he was prejudiced
because the DO’s personal knowledge—that Ryan’s
accusation about his coworkers’ drinking habits was
false—carried over into his decision on the other

12a
specifications for Ryan’s lack of candor. The record
does not support Ryan’s argument. While the DO did
admit that he was unable to forget that Ryan had made
this accusation, he twice averred in the same exchange
that Ryan’s charged conduct alone was sufficient to
sustain the charges at issue. See J.A. 1462 (“If we threw
[Ryan’s accusation] away, I would have still upheld the
lack of candor because of the lack of evidence, through
unsubstantiated assertions. It’s pretty black-andwhite.”). Ryan has not shown that the AJ erred by
crediting this testimony, in conjunction with the
remainder of the record, as substantial evidence that
the DO’s personal knowledge was not new and
material ex parte information.
C.

Finally, Ryan argues that the AJ erred by
rejecting his affirmative defense under the WPA.
In Ryan’s view, his disclosure of the illegal quid pro
quo between the sergeant and SV was a contributing
factor to his removal because his memorandum was
cited in the notice of proposed removal. Ryan argues
that this showing has satisfied his burden to establish
a prima facie case of retaliation; thus, the AJ should
have then shifted the burden to the government to
rebut -this showing. Ryan further argues that his
disclosures were made in good faith and that he had a
reasonable belief that his disclosure evidenced a
violation of a rule or regulation.
The government responds that the WPA only
protects a government employee for disclosures he
“reasonably believes evidence” a violation of a law, rule
or regulation, gross waste, an abuse of authority, or a
danger to public health or safety. 5 U.S.C. §

13a
2302(b)(8)(A). The government further argues that
substantial evidence supports -the AJ’s decision to
credit the DO’s testimony that Ryan’s previous
disclosures were not a contributing factor to his
removal.
We agree with the government that the AJ
correctly held that Ryan’s disclosures do not qualify his
actions for protection under the WPA. To receive the
protection of the WPA, an employee must establish by
a preponderance of the evidence that he. made a
protected disclosure. See Horton v. Dep’t of Navy. 66
F.3d 279. 282 (Fed. Cir. 1995). A disclosure is protected
only if the employee has a reasonable belief that the
disclosure reveals a type of misbehavior described in 1
2302(b)(8)(A). Ryan argues that his memorandum is
protected by virtue of its revelation of an illegal
exchange. between the sergeant and SV,. but we
conclude that the AJ reasonably found, based on the
factual record and the testimony of both Ryan and the
DO, that this accusation had no reasonable basis.
In
his
memorandum, Ryan asserted
the
existence of an illegal quid pro quo, but he has not
provided any evidence of such a deal, either on appeal
or previously. Therefore, he had no reasonable basis to
believe that his memorandum revealed the type of
misbehavior described in § 2302(b)(8)(A). See Lachance
v. White. 174 F.3d 1378. 1381 (Fed. Cir. 1999) (holding
that a belief is reasonable when “a disinterested
observer with knowledge of the essential facts known
to and readily ascertainable by the employee [could]
reasonably conclude that the actions of the government
evidence [a violation]” and that the “purely subjective
perspective of an employee is not sufficient”). The WPA
does not give employees carte blanche to announce that
their coworkers have committed serious legal violations

13a-l
based purely on speculation—let alone to ignore
privacy laws and abuse their access to government
records in doing so. Thus, Ryan has not shown that the
AJ’s finding that his disclosure was not protected by
the WPA was unsupported by substantial evidence.
We further agree with the government that
substantial evidence supports the AJ’s finding
that Ryan’s previous disclosures of unauthorized
congregating at SV’s duty post did not contribute to his
removal. Neither of these disclosures was cited in the
notice of proposed removal,. nor did they
involve Ryan asserting an illegal exchange between the
sergeant and SV, violating the Privacy Act, or
misappropriating government records. Furthermore,
the DO testified that he was unaware of one of the
disclosures and welcomed the other. The AJ was
entitled to credit the testimony of the DO, see Hambsch
v. Dep’t of the Treasury. 796 F.2d 430. 436 (Fed. Cir,
1986). and reject Ryan’s argument that these
disclosures contributed to his removal. Ryan has thus
not shown that the AJ’s finding was unsupported by
substantial evidence.
III. CONCLUSION
We have considered Ryan’s other arguments but
find them unpersuasive. For the foregoing reasons,
we affirm the decision of the Board.
AFFIRMED
Footnotes
IThe ROI’s citation of the Privacy Act of 1974 contains
a minor error and should have read “Public Law 93-

'

A.--.'

13a-2
579.” SeePrivacy Act of 1974, Pub. L. No. 93-579. 5
U.S.C.A. § 552a (West through Pub. L. No. 115-281).
2Importantly, Ryan admitted he never reviewed SV’s
Officer Performance Rating, which was the basis for
SV’s performance rating and bonus.

i

14a
UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
WASHINGTON REGIONAL OFFICE
JAMES THOMAS RYAN,
Appellant,

DOCKET NUMBER
DC-0752-17-0673-1-1

v.
DEPARTMENT OF
DEFENSE,
Agency.

DATE: November 15,
2017

Lawrence Berger. Esquire, Glen Cove, New York, for
the appellant.
Elizabeth E. Pavlick and Janies Vietti Esquire,
Washington, D.C., for the agency.
BEFORE
Andrew M. Dunnaville
Administrative Judge
INITIAL DECISION
On July 18, 2017, the appellant filed an appeal of
the agency’s action removing him from his position as a
Lead Police Officer, AD-0083-08 with the Pentagon
Force Protection Agency (PFPA). Appeal File (AF),
Tab 1. The Board has jurisdiction over the appeal
pursuant to 5 U.S.C. § 7511. A hearing was held on
November 6, 2017. For the reasons set forth below, the
agency’s removal action is SUSTAINED.

BACKGROUND

15a
The appellant was appointed as a Police Officer,
AD-0083 for PFPA on February 2, 2009. AF, Tab 26 at
9. The appellant was an “employee” as defined by 5
U.S.C. § 7511(a)(1)(A). Id. On February 7, 2017, PFPA
Major Maritza Castro issued the appellant a Notice of
Proposed Removal for Lack of Candor, Conduct
Unbecoming a Police Officer, and Misuse of
Government Computer. AF, Tab 7 at 16. The appellant
was provided the opportunity to respond, both orally
and in writing. Id. at 22. The appellant gave an oral
reply to the proposed removal and submitted a written
response on March 9, 2017. Id. at 4, 32-33. Following the
appellant’s oral and written reply, PFPA Deputy Chief
William Lagasse issued the appellant a Notice of
Decision on Proposed Removal, removing the appellant
from Federal service on June 6, 2017. See id. at 4. The
appellant was removed based on the following charges
and specifications:
Charge 1: Lack of Candor
Specification 1: On January 1, 2016, you
sent an e-mail to Sergeant Cook stating
that he had been designated as a witness in
a MSPB appeal. At that time Sergeant
Cook had not been designated as a witness
in any MSPB appeal to which you were a
party, a fact you knew. Your statement to
Sergeant Cook that he was a witness in a
MSPB proceeding was not true, and
demonstrates a lack of candor.
Specification 2: On January 1, 2016, you
sent an e-mail to Officer Bell that she had
been designated as a witness in a MSPB

16a
appeal. At that time Officer Bell had not
been designated as a witness in any MSPB
appeal to which you were a party, a fact you
knew. Your statement to Officer Bell that
she was a witness in an MSPB proceeding
was not true and demonstrates a lack of
candor.
Specification 3: On October 12, 2016, you
sent a Memorandum to Chief Kusse,
Assistant Chief Plummer, Major Taylor,
Major Brisueno, Captain Slinn, Lieutenant
Carpenter, Lieutenant Wright, Sergeant
Watkins, and OPR, disparaging Sergeant
Cook and Officer Vickers by alleging that
Sergeant Cook provided Officer Vickers
with a cash bonus as an improper incentive
for allowing the N. Rotary and Fern VACP
to become a location for unauthorized
congregating, food delivery, and eating.
You offered no evidence to support your
allegation of improper incentive. Your
allegation is not true and you were
attempting to use untrue information to
seek to have Sergeant Cook and Officer
Vickers disciplined; therefore when you
made this allegation, you lacked candor.
Specification 4: On October 23, 2016, you
sent a Memorandum to OPR disparaging
Major Taylor and Sergeant Green by
alleging that they have an inappropriate off
duty relationship that involves alcohol. You
offered no evidence to support your
allegation of an inappropriate relationship

17a
that involves alcohol. Your allegation is not
true and you were attempting to use untrue
information to seek to have both Major
Taylor and Sergeant Green disciplined;
therefore when you made this allegation,
you lacked candor.
Charge 2: Conduct Unbecoming of a Police
Officer
Specification 1: On January 1, 2016, you
requested that Sergeant Cook send you his
PII. You had no authorized basis to request
that Sergeant Cook provide you with his
PII. Your attempt to get Sergeant Cook to
disclose his PII to you when you had no
legitimate basis to request that he provide
you with his PII was unacceptable,
improper, and' conduct unbecoming of a
PFPA police officer.
Specification 2: On January 1, 2016, you
requested that Officer Bell send you her
PII. You had no authorized basis to request
that Officer Bell provide you with her PII.
Your attempt to get Officer Bell to disclose
her PII to you when you had no legitimate
basis to request that she provide you with
her PII was unacceptable, improper, and
conduct unbecoming of a PFPA police
officer.
Specification 4: On October 12, 2016, you
sent a Memorandum to Chief Kusse,
Assistant Chief Plummer, Major Taylor,

18a
Major Brisueno, Captain Slinn, Lieutenant
Carpenter, Lieutenant Wright, Sergeant
Watkins, and OPR, improperly referencing
information you received from Officer
Vickers’s DD 2799 as part of .your EEO
Complaint. You did not have the
authorization to share Office Vickers’s
personal information for this purpose,
which is conduct unbecoming a PFP A
police officer.
Charge 3:
Computer

Misuse

of a

Government

Specification 1: On October 12, 2016, you
admitted that you searched Officer
Vickers’s name in RMS to research the
reports he had written. You had neither
authorization nor a legitimate business
reason for conducting this search. Your
action in conducting an unauthorized search
in RMS for your own personal gain was a
misuse of government resources.
Id. at 19-20.
The appellant submitted the above-captioned
appeal on July 18, 2017. AF, Tab 1. A prehearing
conference was held on October 31, 2017, and the
hearing was conducted on November 6, 2017. See AF,
Tab " 32. The parties submitted written closing
arguments on November 13,2017. AF, Tabs 30,31.
ANALYSIS AND FINDINGS
A.

The agency has met its burden of proof with

19a
regards to Charges I, II, and III.
The agency has the burden of proving each
element of its misconduct charges by a preponderance
of the evidence. 5 C.F.R. § 1201.56(b)(l)(ii). See
Burroughs v. Department of the Army, 918 F.2d 170,
172 (Fed. Cir. 1990). Preponderant evidence is the
degree of relevant evidence that a reasonable person,
considering the record as a whole, would accept as
sufficient to find that a contested fact is more likely
true than untrue. See 5 C.F.R. § 1201.4(q). Proof of one
or more specifications supporting a charge is sufficient
to sustain the charge. See Greenough v. Department of
the Army, 73 M.S.P.R. 648, 657 (1997). If an agency
proves its charges, it must show that discipline in some
form is warranted to promote the efficiency of the
service and that the penalty imposed is within the
tolerable limits of reasonableness. See Douglas v.
Veterans Administration, 5 M.S.P.R. 280, 306 (1981).
To resolve credibility issues, an administrative
judge must identify the factual questions in dispute,
summarize the evidence on each disputed question,
state which version he believes, and explain in detail
why he found the chosen version more credible,
considering such factors as: (1) the witness’ opportunity
and capacity to observe the event or act in question; (2)
the witness’ character; (3) any prior inconsistent
statement by the witness; (4) a witness’ bias, or lack of
bias; (5) the contradiction of the witness’ version of
events by other evidence or its consistency with other
evidence; (6) the inherent improbability of the witness’
version of events; and (7) the witness’ demeanor. See
Hillen v. Department of the Army, 35 M.S.P.R. 453, 458
(1987).
As stated above, the appellant’s removal was

20a
based on 1 charge and 4 specifications of Lack of
Candor, 1 charge and 3 specifications of Conduct
Unbecoming a Police Officer, and 1 charge and 1
specification of Misuse of a Government Computer. As
discussed below, I have decided to sustain Specification
3 of Charge I, Specification 4 of Charge II, and Charge
III. Because proof of one or more specifications
supporting a charge is sufficient to sustain the charge, I
find that Charges I, II, and III must be SUSTAINED.
1. Charge I - Lack of Candor
To constitute lack of candor, a misrepresentation
or omission must have been made knowingly. Fargnoli
v. Department of Commerce, 2016 MSPB 19, IHf 17-18,
123 M.S.P.R. 330 (applying the standard set forth in
Parkinson ); Rhee v. DepaHment of the Treasury, 117
M.S.P.R. 640, 1fH 10-11 (2012), overruled in part on
other grounds by Savage v. DepaHment of the Army,
122 M.S.P.R. 612 (2015). Lack of candor and falsification
are distinct charges. See Ludlum v. Department of
Justice, 278 F.3d 1280, 1284 (Fed. Cir. 2002). Whereas
falsification “involves an affirmative misrepresentation
and requires intent to deceive,” lack of candor, by
contrast, “is a broader and more flexible concept whose
contours and elements depend on the particular context
and conduct involved.” Id. For example, lack of candor
need not involve an affirmative misrepresentation, but
“may involve a failure to disclose something that, in the
circumstances, should have been disclosed to make the
statement accurate and complete.” Id. Furthermore,
while lack of candor “necessarily involves an element of
deception, “intent to deceive” is not a separate element
of the offense—as it is for falsification.” Id. at 1284-85.

21a.
i.
NOT
Specifications 1 and 2
SUSTAINED
. Specifications 1 and 2 involve conduct based on
the litigation of a previous Board appeal, Ryan v.
Department of Defense, Docket No. DC-1221-14-0323B-l. The specifications allege that on January 1, 2016,
the appellant sent e-mails to Sgt. Scott Cook and
Officer Zanda Bell which said they had been
“designated” as a witness in a MSPB appeal. AF, Tab 7
at 16 - 19. The agency alleged that the appellant’s
emails lacked candor because at that time they were
sent, Sgt. Cook and Officer Bell had not been
designated as a witnesses in any MSPB appeal to which
the appellant was a party, a fact the agency stated the
appellant knew. Id. The agency stated the appellant’s
statements to Sergeant Cook and Officer Bell that they
were witnesses in a MSPB proceeding “was not true,
and demonstrates a lack of candor.” Id. at 19.
The appellant stipulated to the fact that on
January 1, 2016, he sent an e-mail correspondence to
Sgt. Cook, and Officer Bell, wherein he requested that
Sgt. Cook and Officer Bell provide him with their full
names, dates of birth, addresses, and telephone
numbers because they were witnesses in a case before
the MSPB. AF, Tab 26 at 9-10. At hearing, the
appellant testified that he sent out the emails because
he believed that he was ordered to do so by the
Administrative Judge (AJ) presiding over the
proceeding. AF, Tab 32 (Testimony of Appellant). The
appellant said he was “confused” by the Board’s
discovery process, and did not have a precise
understanding of the Board’s procedure. Id. The
appellant testified that, by making the request for
information, he was attempting to comply with a motion
to compel submitted by the agency. Id. In addition, the

22a.
appellant testified that he had no idea that the Board
was the sole authority to designate witnesses, and he
thought he would have to provide the information to
the AJ to issue a subpoena. Id.
I find that the specifications cannot be sustained.
The appellant’s testimony indicates the emails were
sent in a good faith effort to engage in discovery. The
appellant testified that he wanted Officer Bell and Sgt.
Cook to serve as witnesses in the proceeding, but as a
pro se litigant, he was unaware of the Board’s
procedures. Id. The appellant also testified that he did
not know that the Board was the sole authority to
designate witnesses, and he was confused by the
process. Id. I find it would be inappropriate to discipline
the appellant for what appeared to be confusion over
the Board’s discovery process.
In addition, there is no evidence to suggest that
the appellant told Officer Bell and Sgt. Cook that they
had been “designated” as a witness in an MSPB appeal,
as charged. See AF, Tab 31 at 11. The emails said “you
are a witness.” Id. This is a critical distinction, as the
term “designated as a witness” infers that the
witnesses were designated by the Board. See id. By
stating “you are a witness,” one can infer that the
appellant may have wished to identify the individuals
as potential witnesses. See id. at 13. Accordingly, I find
that while the appellant’s requests for Officer Bell and
Sgt. Cook’s information may have been procedurally
improper, the agency failed to establish that the
appellant knowingly made a misrepresentation, and
therefore the agency cannot sustain the specifications.
n.
Specification 3 - SUSTAINED
In Charge I, Specification 3, the appellant is
alleged to have sent a memorandum via e-mail on

23a
October 12, 2016 to several agency employees
“disparaging” Sgt. Cook and Officer Steven Vickers by
alleging that Sgt. Cook “provided Officer Vickers a cash
bonus as an improper incentive for allowing the N.
Rotary and Fern VACP to become a location for
unauthorized congregating, food delivery, and eating.”
AF, Tab 7 at 19.
The appellant stipulated to sending the email
and memorandum. AF, Tab 26 at 10; see also AF, Tab
32 (Testimony of Appellant). At hearing, the appellant
stated that he sent the email because he did not believe
Officer Vickers deserved a bonus, and that Officer
Vickers’ rating was inflated. AF, Tab 32 (Testimony of
Appellant). In addition, the appellant testified that he
would see officers come in with food trays “every
weekend” while Sgt. Cook worked as shift supervisor,
and that Sgt. Cook “participated in it.” Id.
While the appellant may have believed that
Officer Vickers Received an inflated rating, there is no
credible evidence in the record to support the position
that Officer Vickers was provided a bonus in exchange
for allowing the N. Rotary and Fern VACP to become a
place for unauthorized congregating, food delivery, and
eating, as the appellant claimed in the October 12, 2016
memo. See AF, Tab 8 at 32. In addition, the appellant
was unable to explain how he received the information
set forth in his claim.. At hearing, the appellant testified
that he had little, if any knowledge as to how bonuses
were given. Id. Furthermore, Chief Lagasse testified
that Officer Vicker’s Officer Performance Rating was
the basis for his performance rating and bonus - an item
that the appellant admitted he never reviewed. AF,
Tab 30 at 15.
Because there is no evidence to indicate that the
bonus was offered as an incentive for the alleged

24a
improper behavior, I find that the appellant’s statement
lacked candor and therefore the specification must be
sustained. Accordingly, because Charge I, Specification
3 is sustained, the charge of lack of candor is sustained.
m.
Specification 4 - NOT SUSTAINED
Specification 4 charges the appellant with
sending a Memorandum to the Office of Professional
Review (OPR) on October 23, 2016, which disparaged
Maj. Taylor and Sgt. Green “by alleging that they have
an inappropriate off duty relationship that involves
alcohol.” AF, Tab 7 at 19. In its closing argument, the
agency withdrew the specification, stating that it
appeared as if the deciding official considered
information related to the personal relationship that
was only known to him. AF, Tab 30 at 15. Accordingly,
the specification is not sustained.
• 2.

Charge 2 - Conduct Unbecoming of a
Police Officer

To prove a charge of conduct unbecoming an
- employee, an agency is required to demonstrate that
the appellant engaged in the underlying conduct alleged
in support of the broad label. See Raco v. Social
Security Administration, 117 M.S.P.R. 1, 1f 7 (2011). A
conduct unbecoming charge may be proven by
preponderant evidence that the employee engaged in
the conduct as described in the charge and that such
conduct was improper, unsuitable, or detracted from his
or her character or reputation. See, e.g., Social Security
Admin, v. Long, 113 M.S.P.R. 190, If 42 (2010), affd, 635
F.3d 526 (Fed. Cir. 2011).
i.

Specifications

1

and

2

NOT

.

25a
SUSTAINED
As with Charge I, Specifications 1 and 2, Charge
II, Specifications 1 and 2 involve conduct based on the
litigation of a Ryan v. Department of Defense, Docket
No. DC-1221-14-0323-B-1. The specifications allege that
on January 1, 2016, the appellant sent e-mails to Sgt.
Cook and Officer Bell requesting their PII, to include
their name, date of birth, address, and telephone
number. AF, Tab 7 at 16-20. The agency alleged that
the request constituted conduct unbecoming because
the appellant “had no legitimate basis” to request this
information. Id.
■ As stated above, the appellant stipulated to the
fact that on January 1, 2016, he sent an e-mail
correspondence to Sgt. Cook, and Officer Bell, wherein
he requested that Sgt. Cook and Officer Bell provide
him with their fall name, date of birth, address, and
telephone nmnber because they were witnesses in a
case before the MSPB. AF, Tab 26 at 9-10. The
appellant testified that he sent out the email because he
believed that he was ordered to do so by the AJ
presiding over the proceeding, and he was unaware of
the Board’s discovery procedures. AF, Tab 32
(Testimony of Appellant).
As I discussed in my findings for Charge I,
Specifications 1 and 2,1 find the appellant gave credible
testimony that he made the request out of a belief that
he needed the information for discovery and to litigate
his Board appeal. Accordingly, I find that the agency
did not prove that the appellant “had no legitimate
basis” to request the information, and therefore the
specifications are not sustained.
u.

Specification 4 -SUSTAINED

26a.
Specification 4 alleges that on October 12, 2016,
the appellant sent a Memorandum to Chief Kusse, Maj.
Taylor, Maj. Brisueno, Capt. Slinn, Lt. Carpenter, Lt.
Wright, Sgt. Watkins, and the OPR, improperly
referencing information he received from Officer
Vickers’s DD 2799 (Employee Performance Plan and
Results Report) as part of his EEO Complaint. AF, Tab
7 at 20. The specification stated that the appellant did
not have the authorization to share Office Vickers’s
personal information for this purpose, “which is conduct
unbecoming a PFPA police officer.” Id.
The specification is based on a formal complaint
of discrimination that the appellant filed with the
EEOC on February 15, 2016. AF, Tab 26 at 10. Id. See
also AF, Tab 32. An investigation of the EEOC
complaint was conducted and a copy of the resulting
Report of Investigation (ROI) was issued to the
appellant on or about August 9, 2016. Id. The ROI
summary was preceded by a page which states in bold
writing at the top of the page: “Privacy Act Data Cover
Sheet.” The page also includes text stating,
“DOCUMENTS ENCLOSED ARE SUBJECT TO
THE PRIVACY ACT OF 1974.” Id. A copy of Officer
Steven Vickers’ DD 2799 “Employee Performance Plan
and Results Report” was included as a part of the ROI
the appellant received. Id. On October 12, 2016, the
appellant sent e-mail correspondence to Chief Kusse,
Assistant Chief Plummer, Maj. Taylor, Maj. Brisueno,
Capt. Tracy Slinn, Lt. Carpenter, Lt. Wright, Sgt.
Watkins, and PFPA’s OPR, with the subject heading:
“See Attached.” Id. Attached to the email was a
Memorandum in which Appellant stated that Sgt. Cook
“fraudulently inflated” Officer Vickers’ ratings in the
DD 2799. Id.

27a
The appellant stipulated to the facts set forth
above. Id. At hearing, EEO Director Pam Sullivan
testified that the sole purpose that the appellant was
authorized to use the DD 2799 was to present his
alleged case of discrimination to a judge in an EEO
matter. AF, Tab 32 (Testimony of Sullivan). The
appellant testified that he was aware of the prohibition
against disseminating such information, but believed
that he was making the disclosure because he was
trying to fulfill his duty to “report a criminal act.” AF,
Tab 32 (Testimony of Appellant).
I find the appellant’s argument to be without
merit. The ROI contained a clear prohibition against
the disclosure of personal data, which the appellant
testified he was aware of. Id. The appellant also signed
a copy of a Notice of Rights and Responsibilities, which
stated that “you may not show your copy of the ROI, in
whole or in part, to a third party except your
designated representative.” AF, Tab 30 at 4. The
appellant was not authorized to violate the rule. AF,
Tab 32 (Testimony of Sullivan).
In addition, there was no credible evidence that
the DD 2799 was related to a criminal act. Finally, even
if the appellant believed that the DD 2799 contained
evidence of a criminal act, because the appellant had
served as a police officer for several years, he should
have known the importance of adhering to agency
regulations, and he should have been aware of the
proper protocol for reporting alleged illegal activity.
The appellant’s unauthorized sharing of personal
information constituted conduct unbecoming a police
officer.
3.

Charge 3 - Misuse of a Government
Computer - SUSTAINED

28a
When an agency disciplines an employee based
on an “unacceptable conduct” charge, it is considered
general charging language. See LaChance v. Merit
Systems -Protection Board, 147 F.3d 1367, 1371 (Fed.
Cir. 1998). When such language is used by an agency
“the Board must look to the specifications to determine
what conduct the agency is relying on as the basis for
its proposed action.” Id. In order to prove this charge,
the agency mush show that the charged conduct
occurred, and the conduct was improper, unsuitable, or
detracted from the appellant’s character or reputation.
See Miles v. Department of the Army, 55 M.S.P.R. 633,
637 (1992).
In this case, the appellant was charged with
Misuse of a Government Computer based on an October
12, 2016 search for Officer Vickers’s name in RMS to
research the reports he had written. AF, Tab 7 at 20.
The charge stated that the appellant had neither
authorization nor a legitimate business reason for
conducting this search, and that the appellant’s action
in conducting an unauthorized search in RMS was a
misuse of government resources. Id.
In this case, the appellant admitted to
conducting a search of reports authored by Officer
Vickers in RMS on an unknown date prior to October
12, 2016. AF, Tab 30 at 5. The appellant stated at
hearing that he didn’t ask anyone to do the search, and
did not ask for authorization. AF, Tab 32 (Testimony of
Appellant). Instead, the appellant stated that he ran
the search because he had information of criminal
misconduct, which he testified he had a duty to report.
Id.
I find the appellant’s argument lacks merit, and
the specification and charge must be sustained.
Individuals who log into RMS are required to certify

29a
proper use of the program and acknowledging the
following:
You are accessing a U.S. Government (USG)
Information System (IS) that is provided for
USG-authorized use only. By using this IS
(which includes any device attached to this IS),
you consent to the following conditions ... This IS
includes security measures (e.g. authentication
and access controls) to protect USG interests—
not for your personal benefit or privacy.
AF, Tab 8 at 49.
While the appellant claimed that he was
permitted use RMS to conduct criminal investigations,
the appellant did not provide any evidence to indicate
that he was authorized to conduct an investigation into
Officer Vickers. See AF, Tab 32 (Testimony of
Appellant). The appellant was not employed as a
Criminal Investigator, and did not work in the OPR. Id.
The appellant did not seek authorization from anyone to
conduct a search of Officer Vickers’ reports in RMS. Id.
In addition, Chief Lagasse testified that the appellant
was not authorized to use RMS for this purpose and
that if an officer had a belief that another officer was
committing a crime, they should go to OPR. AF, Tab 32
(Testimony of Lagasse). Chief Lagasse stated that an
officer can’t run searches out of their own curiosity. Id.
Accordingly, I find that the appellant’s use of
RMS was unauthorized, and therefore the agency
demonstrated by a preponderance of the evidence that
the appellant misused a government computer. The
specification and charge are sustained.
II. The agency has established a nexus between the

30a
appellant’s misconduct and the efficiency of the
service.
In addition to the requirement that the agency
prove its charge against the appellant, the agency must
also prove that there is a nexus, i.e., a clear and direct
relationship between the articulated grounds for the
adverse action and either the appellant’s ability to
accomplish his duties satisfactorily or some other
legitimate government interest. Ellis v. Department of
Defense, 114 M.S.P.R. 407,1f 8 (2010). Here, I find that a
clear nexus has been established, as the appellant
displayed improper conduct in the workplace, and the
misconduct had an impact on the appellant’s ability to
conduct his duties as a police officer. See AF, Tab 32
(Testimony of Lagasse).
III. The penalty of removal is sustained.
In determining the reasonableness of an agencyimposed penalty, the Board will examine the penalty to
determine if it is within the tolerable limits of
reasonableness. _ See
Douglas
v.
Veterans
Administration, 5 M.S.P.R. 280, 306 (1981). In
evaluating the penalty, the Board will consider, first
and foremost, the nature and seriousness of the
misconduct and its relation to the employee’s duties,
position, and responsibilities, including whether the
offense was intentional or was frequently repeated. The
Board must give due weight to the agency’s primary
discretion in maintaining employee discipline and
efficiency, recognizing that the Board’s function is not
to displace management’s responsibility but to ensure
that managerial judgment has been properly exercised.
See Lazenby v. Department of the Air Force, 66

31a
M.S.P.R. 514, 520 (1995). Thus, the Board will modify a
penalty only when it finds that the agency failed to
weigh the relevant factors or that the agency’s
judgment clearly exceeded the bounds
of
reasonableness. Id. See Schoemer v. Department of the
Army, 81 M.S.P.R. 363,366 (1999).
In this case, I sustained all 3 charges, but I did
not sustain all of the specifications. When not all of the
specifications are sustained, the Board will consider
carefully whether the sustained charges and
specifications merited the penalty imposed by the
agency. See Douglas, 5 M.S.P.R. at 308. However, in
doing so, the Board may not disconnect its penalty
determination from the agency’s managerial will and
primary discretion in disciplining employees. See
Lachance v. Derail, 178 F.3d 1246, 1260 (Fed. Cir.
1999).
I find that the sustained charges and
specifications warrant the penalty of removal. Chief
Lagasse set forth his reasons to remove the appellant in
the Decision to Remove, his Douglas Factors analysis, ',
and at hearing. See AF Tab 7, at 4-14, 141-154. At
hearing, Chief Lagasse testified that due to the
misconduct, the appellant could not be trusted with
sensitive information, has poor judgment, and could not
adequately perform with the agency. AF, Tab 32
(Testimony of Lagasse). Chief Lagasse also stated that
as a police officer he was held to a higher standard, and
even if all of the charges and specifications were not
sustained, he would have removed the appellant. Id.
Chief Lagasse also took into consideration the
appellant’s prior discipline. Id. The appellant had
received a 14 day suspension for Misusing Government
Property and Failing to Follow Written Suspension.
AF, Tab 7 at 11. With regards to the consistency of the

32a
penalty, Chief Lagasse stated that other police officers
had been removed for sustained charges of Lack of
Candor and/or Conduct Unbecoming a Police Officer.
Id. According to the agency’s table of penalty, Conduct
Unbecoming a Police Officer may warrant 14 day
suspension to removal, and Misuse of Government
Property may warrant a 5 day suspension to removal.
AF, Tab 32 (Testimony of Lagasse). These factors,
Chief Lagasse testified, were used to evaluate the
penalty. Id. Finally, Chief Lagasse stated the agency
“can’t rehabilitee” a lack of candor, that the appellant
showed a lack of remorse, and that the appellant lacked
the credibility to successfully perform his duties. Id.
In evaluating a penalty determination, the Board
will consider, first and foremost, the nature and
seriousness of the misconduct and its relation to the
employee’s duties, position, and responsibilities
including whether the offenses were intentional or were
frequently repeated. See Hernandez v. Department of
Agriculture, 83 M.S.P.R. 371, 374 (1999). Here, I find
that the penalty of removal should not be mitigated.
The appellant’s dissemination of information obtained
through the EEO process was a serious violation of
privacy safeguards, made more severe by the fact that
the appellant was a law enforcement officer. In
addition, the appellant was found to have engaged in
lack of candor, which impedes his credibility and ability
to serve as a police officer. The appellant also misused
RMS, despite being told that the system was for official
use only. The appellant was put on notice that future
misconduct would not be tolerated, and had served a 14
day suspension for similar misconduct. Accordingly, I
find that the penalty of removal was within the
tolerable bounds of reasonableness and the Board is
without authority to mitigate it. See Beard v. General

33a
Services Administration, 801 F.2d 1318,1322 (Fed. Cir.
1986).
IV. The appellant has failed to establish that the
agency committed a violation of the appellant’s
right to due process.
The appellant must prove an affirmative defense
by a preponderance of the evidence. See 5 C.F.R §
1201.56(a)(2). Although the appellant initially raised
only the affirmative defense of whistleblower
retaliation, testimony elicited during the hearing raised
a potential due process violation.
The Board’s reviewing court has held a deciding
official violates an employee’s due process rights when
he relies upon new and material ex parte information as
a basis for her decision on the merits of a proposed
charge or the penalty to be imposed. Noms v.
Securities & Exchange Commission, 675 F.3d 1349, '
1354 (Fed. Cir. 2012); Ward v. United States Postal
Service, 634 F.3d 1274,1279-80 (Fed. Cir. 2011); Stone v.
Federal Deposit Insurance Corporation, 179 F.3d 1368,
1376-77 (Fed. Cir. 1999). The Board has also held an
employee’s due process right to notice extends to both
ex parte information provided to a deciding official and
information known personally to the deciding official, if *
the information was considered in reaching the decision
and not previously disclosed to the appellant. Solis v.
Department of Justice, 117 M.S.P.R. 458, If 7 (2012).
Nevertheless, each of the above-cited cases recognize
not all ex parte communications rise to the level of due
process violations; rather, only those communications
that introduce new and material information to the
deciding official are constitutionally infirm. Id. at f 8.
The Federal Circuit identified the following

34a
factors to be used in determining whether ex parte
information is new and material: (1) whether the ex
parte information introduced cumulative, as opposed to
new, information; (2) whether the employee knew of the
information and had an opportunity to respond; and (3)
whether the communication was of the type likely to
result in undue pressure on the deciding official to rule
in a particular manner. Stone, 179 F.3d at 1377. The
dispositive question to be answered is whether the ex
parte communication is so substantial and so likely to
cause prejudice that no employee can fairly be required
to be subjected to a deprivation of property under such
circumstances. Id.
In this case, the appellant argued that Charge I
should not be sustained because of improper ex parte
communications. AF, Tab 31 at 7. With regards to
Charge I, Specification 4, the appellant referenced
testimony from Chief Lagasse wherein he stated he had
known Maj. Taylor and Sgt. Green for years, and that
he had never observed Sgt. Green consume alcohol,
“except for a beer here and there.” Id. at 7. Chief
Lagasse also testified that he was aware of how
important Maj. Taylor’s family was to him and the
substantial amount of time he spent with family, thus
inferring that he and Sgt. Green could not have a
relationship involving drinking. Id. at 8. In addition, the
appellant argued that Chief Lagasse testified that “by
virtue of his personal knowledge,” and used his
personal knowledge to conclude that the appellant was
not credible. Id.
The agency conceded that Chief Lagasse
considered personal knowledge in deciding to sustain
Charge I, Specification 4, and that the appellant was
not aware of it. AF, Tab 30 at 23. The agency argued
that while Chief Lagasse considered ex parte

35a
information with regards to that specification, his
testimony demonstrated that he did not consider ex
parte information with regard to the remainder of the
proposed removal. Id. at 23-24. Accordingly, the agency
withdrew the specification. Id.
After reviewing the evidence in the record and
hearing transcript, I find that while Chief Lagasse’s
personal knowledge may have impacted Charge I,
Specification 4, because the specification was
withdrawn, and because the agency would have
removed the appellant regardless of the specification or
charge, the consideration did not constitute “new and
material” information. The ex parte information was
highly unlikely to impact the deciding official’s overall
determination to remove the appellant. See Mathis v.
Department of State, 122 M.S.P.R. 507, t 12 (2015).
The ex parte information considered by Chief
Lagasse related to Chief Lagasse and Maj. Taylor’s
propensity to drink and engage in a relationship
involving drinking. While this information was material
to Charge I, Specification 4, as stated above, the
specification was withdrawn by the agency. Chief
Lagasse testified that he would have removed the
appellant even if all of the charges and specifications
were not sustained, and he provided a detailed list of
reasons for the removal of the appellant in his decision
and Douglas Factors analysis. AF, Tab 32 (Testimony
of Lagasse). See AF, Tab 7 at 5-9.
As for the other charges and specifications, the
ex parte consideration at best only confirmed or
clarified information already contained in the record.
See Blank v. Department of the Army, 247 F.3d 1225,
1229 (Fed. Cir. 2001). For example, in Charge I,
Specification 3, the appellant admitted in his response
to the notice of proposed removal to making the

36a
allegation that Sgt. Cook provided Officer Vickers with
a cash bonus as an improper incentive for allowing
misconduct. See AF, Tab 7 at 34-36. The deciding
official testified that he made his decision to sustain the
specification based on the fact that the appellant did not
offer any proof to substantiate his claim, and the fact
that cash bonuses based on ratings were not issued by
sergeants. AF, Tab 32 (Testimony of Lagasse).
After reviewing Chief Lagasse’s testimony and
the record in the proceeding, I find that Chief Lagasse’s
consideration of personal information was not “so likely
to cause prejudice that no employee can fairly be
required to be subjected to a deprivation of property
under such circumstances.” Stone, 179 F.3d at 1377.
Accordingly,. I conclude that there was not a violation of
the appellant’s constitutionally guaranteed due process
rights.
V. The appellant has failed to establish an
affirmative defense of whistleblower retaliation.
To prove a prima facie case of retaliation for
whistleblowing, the appellant must prove by
preponderant evidence that: (a) he made a disclosure
protected by 5 U.S.C. § 2302(b)(8) or (b)(9); and (b) it'
was a contributing factor in the personnel action being
appealed. If the appellant meets this burden, the
agency must prove by clear and convincing evidence
that it would have taken the same action even absent
the disclosure. See Savage, 122 M.S.P.R. 612 If 25.
In order to establish an affirmative defense of
whistleblower retaliation, the appellant must identify:
(a) the date, substance and recipients of the protected
disclosure; (b) whether the disclosure constitutes a
violation of law, rule or regulation, gross

37a
mismanagement, a gross waste of funds, an abuse of
authority, or a substantial and specific danger to. public
health or safety; (c) whether the proposing and/or
deciding official knew of the disclosure; and (d) how it
constituted a contributing factor in the agency’ decision
in the matter appealed.
In this case, the appellant stated that he was
removed because on May 30, 2016, he reported that the
North Rotary and Fern VACP was being used as a
location for congregation and eating and that vehicles
were obstructing N. Rotary and fern VACP traffic
lines. AF, Tab 20 at 14. However, Chief Lagasse
testified that he was unaware that Appellant had sent
the May 30, 2016 correspondence, and he further
testified that it was not a contributing factor in his
decision to remove appellant. AF, Tab 32 (Testimony of
Lagasse). Accordingly, the claim of whistleblower
retaliation must fail.
The appellant’s second claim was that on October
9, 2016, he reported to Sgt. Watkins, OPR, and others,
that he observed Sgt. Cook. Sgt. Green, Officer
Vickers, A. Davis, and Grant eating pizza inside the N.
Rotary and Fern VACP, and that he noted the locking
mechanism to the door had been tampered with. AF,
Tab 20 at 14. Chief Lagasse testified that he was aware
that the appellant had reported this, and stated that he
believed it was appropriate that appellant had reported
the activity during the Army Ten Miler and that the
sergeants involved were disciplined for it. AF, Tab 30
at 22. See also AF, Tab 32 (Testimony of Lagasse).
Chief Lagasse further testified that the fact that the
appellant had reported people eating and congregating
during the Army Ten Miler did not contribute to his
decision to remove the appellant. I find Chief Lagasse’s
testimony on the issue to be credible, and the appellant

38a
failed to prove by preponderant evidence that the
disclosure was a contributing factor in his removal. See
AF, Tab 32 (Testimony of Appellant, Lagasse).
The appellant also claimed that he was removed
for sending correspondence to his chain of command
and OPR which stated that Sgt. Cook improperly
inflated Officer Vickers’ performance rating, as
discussed above. See AF, Tab 20 at 14. Chief Lagasse
testified that the appellant was disciplined not because
he reported what he believed was misconduct, rather, it
was that he reported this allegation with no reasonable
basis to support his allegations, as well as conducting
his own criminal investigation with no authorization or
basis to do so. AF, Tab 30 at 23; see also AF, Tab 32
(Testimony of Lagasse). I find Chief Lagasse’s
testimony to be credible, and therefore conclude that
the appellant’s alleged whistleblower activity did not
constitute a contributing factor in the agency’s decision
to remove the appellant.
In conclusion, I find that the agency has proven
the charges discussed above by a preponderance of the
evidence, that the penalty of removal was reasonable
and supports the efficiency of the service, and that the
appellant failed to establish an affirmative defense.
Accordingly, the agency’s decision to remove the
appellant must be affirmed.
Decision
The agency’s action is AFFIRMED.
FOR THE BOARD:

IBL
Andrew M. Dunnaville
Administrative Judge

39a
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
JAMES THOMAS RYAN,
Petitioner
v.
DEPARTMENT OF DEFENSE,
Respondent
20184524
Petition for review of the Merit Systems
Protection Board in No. DC-0752-17-0673-1-1.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE,
BRYSON1, DYK, MOORE, O’MALLEY, REYNA,
WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
1 Circuit Judge Bryson participated only in the decision on the
petition for panel rehearing.

40a
ORDER
Petitioner James Thomas Ryan filed a combined
petition for panel rehearing and rehearing en banc. The
petition was referred to the panel that heard the
appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on May 6,
2019.
(

FOR THE COURT
April 29. 2019
Marksteiner
Marksteiner

• Peter
Is/
Date Peter
Clerk of Court

R.
R.

41a
March 23,2019

James Ryan
306 Guilford Ct.
Bel Air, Maryland 21015 ,

Judges of the Court of Appeals for the Federal Circuit
717 Madison Place N.W.
Suite 401
Washington D.C. 20005

Dear Judges,

Attached is a combined Petition for Rehearing and
Petition for Rehearing in Banc concerning the following
opinion decided on February 13, 2019:

42a
James Thomas Ryan

v.

Department of Defense

2018-1524

In the proceeding below, I was represented by:

Lawrence Berger
Garden City, New York

In the subsequent Petition for Review, I was
represented by:

John Silverfield
Garden City, New York.

I am now proceeding pro se.

43a
Please consider the due process argument and
whistleblower argument from the PFR opening and
reply brief as pro se because my attorney forced me to
■write the argument myself, and physically enter it into
the brief. My attorney also refused my instructions to
request a remand.

The panel decision conflicts with prior
decisions of this Court because the Agency did not
show my statement to be incorrect or incomplete or
that an element of deception was present. Ludlum v.
Dep’t of Justice, 278 F.3d. 1280 (Fed. Cir. 2002).
The CAFC affirmed the AJ’s decision to sustain
lack of candor specification 3 because (1) Ryan chose
to assert the existence of a quid pro quo between the
sergeant and SV without any evidence and represented
the alleged exchange as fact, (2) by making an
allegation he knew was unsupported, Ryan intended to
deceive the recipients of the memorandum, (3) Ryan
could not support his allegation SV’s evaluation was
fraudulently inflated because he admitted that he never
read SV’s Officer Performance Rating, and (4) Ryan
failed to provide a material fact necessary to make the
statement not misleading.
In Ludlum this Court defined lack of candor as:
(1) an employee knowingly made an incorrect or
incomplete statement, or (2) the employee failed to
disclose something to make a given statement complete
and not misleading. Id. The elements are flexible; but

44a
there are definitive elements, and there must be an
element of deception. Id.
This Court illustrated by analogizing the Federal
securities laws governing securities registration
statements:
‘an untrue statement of a material fact’
and the failure ‘to state a material fact necessary to
make the statements therein not misleading.’” 15
U.S.C. §77k(a). The exact language of the statute is
“omitted to state a material fact....” Id.
In my PFR, this Court held, Ludlum is
“strikingly applicable to Ryan’s failure to provide any
evidence in support of his provocative assertion.” This
Court held, since I did not support a conclusory
statement—not shown incorrect—with material facts,
there was substantial evidence an element of deception
present.
This Court failed to recognize the securities law
analogy was an example of someone misleading by
knowingly omitting something. 15 U.S.C. §77k(a). This
Court has never found lack of candor in an employee’s
conclusory statement—not shown incorrect—because
the employee failed to present a material fact to
support it. See Ludlum, 278 F.3d. 1280.
My case is distinguished from prior CAFC
opinions because (1) there is no evidence that I—
knowingly or otherwise—made an incorrect or
incomplete statement, or (2) that I—knowingly or
otherwise—withheld a material fact that would make
my statement more complete and not misleading. Thus,
deception is not present.

45a
First, I did not allege bribery or a quid pro quo.
The proposing official’s (PO) specification 3 did not
allege this, or allege deception was present. J.A. 2. The
deciding official (DO) sustained specification 3 solely
“[because my allegation was so baseless, I must have
known it false], but offered no evidence my statement
was incorrect.” Appxl60. At hearing, the DO admitted
my statement was in accordance with my perception.
J.A. 1411. The Agency did not propose or sustain a
specification because I asserted a quid pro quo without
evidence. J.A. 2, J.A. 1414, Appxl60.
In my opening brief (P.O.B.), I alleged sergeant
committed a crime by fraudulently inflating SV’s
rating; that sergeant’s misuse of the disciplinary and
performance appraisal systems led to diminished
security conditions that endangered the public; and that
sergeant’s conduct “evidenced theft; see 18 USC 641
Public Money, Property or records, 18 USC 654 Officer
or employee of U.S. converting property of other,
Virginia Code 18.2-95 Grand Larceny. The inflated
rating violated 5 CFR 430.208(a)(1) A rating of record
shall be based only on the evaluation of actual job
performance for the designated rating period.” P.O.B.
p. 9H1, H2, pp. 46 113-47 HI.
I never alleged SV was complicit, or committed a
crime. My references to criminal charges are specific to
sergeant and are inconsistent with the assertion ‘I
alleged bribery or a quid pro quo’ between sergeant and
SV. In my response brief (P.R.B.), I noted I did not
allege a bribe. P.R.B. p. 5
My testimony shows I
alleged theft by sergeant and his motive. Appxl366-

46a.
1367. All accusations I made are not in harmony with a
quid pro quo assertion. I never asked SV questions that
could implicate SV in a quid pro quo or any crime. J.A.
418. The exact statement:

[sergeant] fraudulently inflated [SV’s] DD 2799
to a level 5 exceptional level for the purpose of
undermining my eeo complaint and to protect
himself from disciplinary action related to my
eeo complaint. [Sergeant provided [SV] with a
cash bonus in exchange for allowing the post
deteriorate to a location for unauthorized
[activity],

does not articulate a bribe or quid pro quo. J.A. 417-419.
It simply provides sergeants motives for theft. It is the
opposite of ‘sergeant properly rated and provided
employee with a cash bonus in exchange for exceptional
performance.’ The Agency did not take a statement
from me during its investigation of my alleged
misconduct to clarify the meaning of the statement; nor
did the Agency indicate they interpreted my statement
as an allegation of bribery or quid pro quo prior to
CAFC proceedings.
Second, the DO testified he sustained lack of
candor specification 3 based,on (1) a sustained lack of
candor specification 4 which is based on ex parte
personal information, See infra pp. 4-6, and (2) “[I could
not prove SV’s rating was fraudulently inflated],”

47a
despite the proof listed in the same document. J.A.
1403-1414, J.A. 417-419.
Next, I will address the DO’s lack of candor
finding in specification 4. The DO did not find I made a
false allegation that coworkers abused alcohol. I
mitigated specification 4 in my response. I stated, a
manager and supervisor were in a close personal
relationship, and it seemed to impact disciplinary
processes. The DO stated he knew the relationship did
not exist from his ex parte personal knowledge, and
determined I lacked candor:

D.O.: Just - he had no evidence. I mean, based
on those two individuals, because I’ve known
Maj. Taylor for many years; I’ve known Sgt.
Green for many years. I don’t think they’ve had
any kind of relationship outside of this place
since - Maj. Taylor has had children and Todd is
a bodybuilder. He doesn’t drink alcohol. I’ve
never seen Todd drink alcohol. I’m not saying he
hasn’t had a beer, but that’s just not something
he does normally.

Ms. Pavlick: Did you take your personal
knowledge into consideration when you made
your decision?

D.O.: Well, realistically, that’s the only test I
could have. He provided no other evidence, so

48a
he made an assertion, and I personally know
that’s not the case. J.A. 1415-1416.

Cross Examination
Mr. Berger: I don’t think he answered the
question. He said if [lack of candor] spec 4 was
not sustained, he could still sustain [lack of
candor] 1, 2 and 3. I’m asking whether that
information would have any effect on his decision
to sustain?

D.O.: So, kind of clarifying my previous
statement, it did..... J.A. 1461-1462.

D.O. later testified: No. I mean, I was trying to
explain. I mean, if I sat here and said, no, it had
no effect, that’s not an accurate statement.... I’m
not saying it’s, you know, a foregone conclusion,
... it’s a factor. J.A. 1463.

Second, the following objective facts support
SV’s. rating was fraudulently inflated, and were
included in the October 12, 2016 disclosure:
1. [Sergeant] rating of [SV] notes Officer Vickers
submitted three incident reports; one for a lost
article, a suspicious person, and an assist to an

2.

3.

4.
5.

49a
arrest for synthetic drugs. [Sergeant] notes [SV]
“never needs assistance with written case work
or RMS reports”. A review of RMS records
revealed [SV] did not file any RMS reports for
the entire rating period.
[Sergeant] also notes [SV] dealt with an
individual who attempted to force entry at a
vehicle gate. Again, there are no RMS records to
reflect such an incident.
[Sergeant] commends [SV] for attending
supervisor meetings. Officers are not allowed to
attend these meetings and on August 27, 2016
[SV] admitted to me he has never attended a
supervisor meeting.
[SV] also admitted to me he has not received
JABS training which is another premise listed
for the inflated rating.
[SV] allowed the locking mechanism of the N.
Rotary and Fern VACP to remain tampered
with in a manner that allows the door to remain
unlocked. This not only causes a security issues,
it prevents management from ascertaining who
is going in and out of the booth because you must
have a PMP CAC to access the area. J.A. 417419.

The inflated rating is analogous to an employee
who falsifies a 'Claim for Reimbursement for
Expenditures on Official Business’ to increase
expenses, and then pockets the money; it’s a
conversion. Here, sergeant falsified performance
information to support a $2050.00 bonus. There is no
eyewitness testimony—or hearsay—to dispute it. The

50a
DO testified he had no knowledge of SV’s performance.
J.A. 1410.
Additionally, the issue giving rise to lack of
candor was stipulated as fact: “... [Sgt.] ‘fraudulently
inflated’ [SV]’s rating in the DD 2799.” J.A. 1117 #10.
Next, the AJ did not find I alleged a bribery or
quid pro quo; this was not a question for Hearing. The
AJ found I alleged a theft motive without evidence. The
AJ sustained the specification because:

there is no credible evidence in the record to ■
support the position that [SV] was provided a
bonus in exchange for allowing the-N. Rotary
and Fern VACP to become a place for
unauthorized congregating, food delivery, and
eating, as the appellant claimed in the October
12, 2016 memo.
In addition, the appellant was unable to
(2)
explain how he received the information set
forth in his claim. At hearing, the appellant
testified that he had little, if any knowledge as to
how bonuses were given. Id.
Furthermore, DO testified that [SV] Officer
(3)
Performance Rating was the basis for his
performance rating and bonus - an item that the
appellant admitted he never reviewed. J.A. 6.
(1)

First, the objective facts to support SV’s rating was
fraudulently inflated are discussed supra, p. 5.

51a
Second, the AJ did not quote the MSPB hearing
transcript. The AJ quoted the Agency Attorney’s
closing argument which misquotes testimony. The
hearing transcript is inconsistent with the Agency
Attorney’s assertions of testimony. J.A. 1275-1281, J.A.
1342-1344. Thus, the AJ’s decision was not based on
record evidence.
Third, I made a factual inference concerning
sergeant’s theft motive based on my training and
experience as a law enforcement officer. J.A. 1279.
Sergeant was aware SV was facilitating misconduct
between April 2015 through March 2016 and sergeant
participated in it; sergeant fraudulently inflated SV’s
rating of record, triggering cash bonus. From those
facts I infer sergeant converted funds and rewarded SV
for misconduct. I never alleged SV’s complicity or a
quid pro quo.
Fourth, it is inherently improbable that I lacked
candor in asserting theft motive because its moot.
Last, I requested the Agency investigate sergeant.
J.A. 418. I did not ask the Agency to take criminal
enforcement action based on my statement. I requested
the
Agency conduct an independent investigation into
sergeant. My request for the Agency to investigate
sergeant is inconsistent with the conclusion I was
deceptive. It is inherently improbable I was trying to
trick anyone into believing something that is not true
because I never asked them to take criminal
enforcement action based on my statement. It is

52a
implausible I would attempt to trick the Agency into
believing a felony theft was a quid pro quo, and then
ask them to independently investigate it.
In conclusion, I did not make an incorrect or
incomplete statement, (knowingly or otherwise), or
withhold a material fact that would make any
statement complete and not misleading. Deception is
not present. Thus, consideration by the full Court is
necessary to secure and maintain uniformity of the
Courts decisions. See Ludlum, 278 F.Sd. 1280
Cumulative Evidence
The proceeding involves questions of
exceptional importance because the panel failed to
recognize and define cumulative evidence. This
conflicts with other United States Court Opinions.
United States v. Magleby, 241 F.3d 1306 (10th Cir.
2001); Goodrich v. The United States, 48 Ct.Cl. 61 (1913)
0citing Greenleaf on Evidence).
Cumulative evidence is generally defined as
additional evidence of the same kind to the same point.
Goodrich, 48 Ct.Cl. 61. “‘Cumulative’ means ‘repetitive
and if the small increment of probability it adds may
not warrant the time spent in introducing it.’” Magleby,
241 F.3d at 1315. “‘Cumulative evidence’ means
‘additional evidence of the same general character, to
the same fact or point which was the subject of proof
before’; it does not include evidence ‘which brings to
light some new and independent proof of a different

53a
character, although it tends to prove the same
proposition’”. Thomas v. State, 24 A.3d 630, 655 (Conn.
2009).
First, the ex parte information is direct,
eyewitness evidence, the DO used to prove I made an
incorrect statement in specification 4 and used the
finding in 4 to sustain specification 3. Supra pp. 4-5.
Second, the known evidence in the DO’s decision
and testimony to sustain lack of candor specification 3
is “[I made a conclusory statement]”—not shown to be
incorrect— “[I could not prove].” Supra p. 2. This type
of evidence is circumstantial and the DO used to infer I
made a statement I knew was incorrect.
The ex parte evidence is a different type and was
used to prove two different facts. Whether the facts
support the same conclusion is not determinative. Thus,
it cannot be considered cumulative. Maglehy, 241 F.3d
1306; Goodrich, 48 Ct.Cl. 61 (citing Greenleaf); Thomas,
24 A.3d 630. Subsequently, it is new evidence. This
Court must define cumulative evidence to protect
Federal employees’ right to due process.
Due Process
The panel decision conflicts with prior
decisions of this Court because, the AJ used a
subjective test to evaluate Stone factors, rather
than an objective test. Stone v. Fed. Deposit Ins. Co.,
179 F.3d 1368 (Fed. Cir. 1999) (citing Sullivan v. Dep’t
of the Navy, 720 F.2d 1266 (Fed. Cir. 1983); Ryder v.

54a
United States, 585 F.2d 482 (Ct.Cl. 1978); (quoting
Camero v. Unites States, 375 F.2d 777 (Ct.Cl. 1967));
Young v. Hud, 706 F.3d 1372 (Fed. Cir. 2013).
( In Stone, this Court mandated an ‘objective’
test. Stone, 179 F.3d 1368. The factor’s to weigh are (1)
“whether the ex parte communication merely
introduces
‘cumulative’
information
or
new
information; □ (2) whether the employee knew of the
information and had a chance to respond to it; and (3)
whether the ex parte communications were of the type
likely to result in undue pressure upon the deciding
official to rule in a particular manner. Id. This Court
held the third factor is “less relevant” when a DO
admits
the
communication
“influenced
her
determination.” See Young, 706 F.3d 1372. The merits
of a specification do not matter when there is a due
process violation. Stone, 179 F.3d 1368 (citing Sullivan,
720 F.2d 1266).
Here, the AJ found the ex parte information
confirmed or clarified information already in the record
because the DO would have removed me absent the ex
parte information. J.A. 6. The AJ considered the DO’s
testimony in determining the ex parte information was
unlikely to affect the overall decision to remove me and
tested lack of candor specification 3 on the merits. Id.
First, the ex parte information was not
cumulative. Supra pp. 7-8.
Second, the DO did not give me notice or an
opportunity to respond. J.A. 1457.

55a
Third, the DO’s testimony he would sustain lack
of candor specification 3 absent ex parte information is
subjective. Notwithstanding, the undue pressure
element is not important because the DO admitted the
ex parte information was a factor to sustain lack of
candor specification 3. Supra pp. 4-5; see Young, 706
F.3d 1372.
In conclusion, the AJ improperly categorized the
ex parte evidence as cumulative, and failed to conduct
and objective Stone factor analysis. The AJ applied the
harmless error test and considered the specification on
the merits in violation of my constitutional right to due
process. Subsequently, consideration by the full Court
is necessary to secure and maintain uniformity of the
Courts decisions. See Stone, 179 F.3d 1938.
The panel decision conflicts with a decision of
the United States Supreme Court, this Court, and a
statute, because I was not afforded my right to due
process, I was not given adequate notice of the
charges against me, and the CAFC/MSPB sustained
a specification not included in the proposal.
Cleveland Board of Education v. Loudermill, 470 U.S.
532 (1985); O’Keefe v. U.S. Postal Service, 318 F.3d 1310
(Fed. Cir. 2002); 5 U.S.C § 7513(b)(1).
The Agency asserts, “[Ryan] admits that his
conclusion that the bonus was a bribe is a ‘factual
inference based on my training and experience as a law
enforcement officer.’ Appxl279.” Agency reply brief
(ARP) p. 20. There is no such admission. J.A. 1279. The
Agency asserts “the [AJ] found that Mr. Ryan ...
requesting the criminal prosecution of [sergeant] for
providing [SV] a cash bonus as a bribe ...” ARP p. 21.

56a
The AJ did not make this finding. J.A. 1-14. The Agency
asserts “[D.O.] found that Mr. Ryan accused [sergeant]
of making a bribe without any evidentiary support.
Appx373.” ARP p. 40. The D.O. made no such assertion.
J.A. 373. I rebutted the assertion in my response brief
by noting I did not make a bribery allegation. P.R.B. p
5.
First, the Agency did not assert I alleged
bribery or quid pro quo until after the record below
closed. Supra pp. 2-4. If the AJ’s decision to sustain lack
of candor is interpreted as finding I asserted a quid pro
quo without evidence, he sustained a specification on
grounds not invoked by the Agency. Id.
Second, the lack of candor specification affirmed
by CAFC was different then the specification proposed
and sustained by the Agency. Id.
Thus, I was not given notice or an opportunity to
respond in violation of my constitutionally protected
due process rights. Subsequently, consideration by the
full Court is necessary to secure and maintain
uniformity of the Courts decisions.
The panel decision conflicts with a statute
because the MSPB decision was unlawful. 5 U.S.C. §
7703(c).
In sustaining specifications, the AJ considered
Agency Attorney pleadings as opposed to hearing
testimony and transcript. J.A. 6, 8-9. The Agency
Attorneys pleadings misquoted relevant testimony.
The Agency Attorneys misquotes are inconsistent with

57a
transcript testimony. Subsequently, the AJ did not rely
on record evidence in his decision to sustain.
Conduct Unbecoming
The DO sustained conduct unbecoming because I
released information in violation of the Rights and
Responsibility form (misquoting the law rendering it
unrecognizable) issued by WHS/EEOC; not for
violating the privacy act.
Privacy act information is releasable by statute:
5 USC §552a(b)(l) Conditions of Disclosure,
permitting disclosure “to those officers and employees
of the agency which maintains the record have a need
for the record in the performance of their duties.” eCFR Title 32 §310.22(5) provides a. blanket routine
use exception for law enforcement, “where the agency
maintaining the record becomes aware of an indication
of a violation or potential violation of civil or criminal
law or regulation,” and the individual ‘system of record
notice’ (SORN) recognizes the blanket exception.
First, the DD 2799 I released is maintained
under SORN’s: OSD/JS DMDC 23 DoD, EEOC/GOVT1, and OPM/GOVT-2. The SORNS recognize blanket
routine law enforcement use.
Second, the information is objective evidence the
DD 2799 was falsified. Supra p. 5, J.A. 417-419. The
information reasonably “indicat[ed] [] a violation or
potential violations of civil or criminal law or

58a
regulation,” subsequently showing employees violated
General Order (GO) 1000.03. J.A. 552.
Third, I testified I reported the information to
law enforcement officers designated by Agency policy
to handle misconduct. J.A. 1352, Appxl354. I testified
the information was releasable by privacy act
exemption. J.A. 1284.
Forth, my testimony at J.A. 1290 is a
conversation with Ms. Sullivan about ROI
discriminatory information in March of 2017; not about
the law enforcement information I disclosed in October
2016. J.A. 1471-1472, J.A. 1482-1483/ J.A. 1487.
Notwithstanding, Ms. Sullivan has no authority to
prevent dissemination of law enforcement information.
Finally, a proper analysis shows General Order
1000.03, and Operations Instruction 27, combined with
the statutes, provided authorization to disclose the DD
2799 to the persons I disclosed it too because they
needed to know it “indicated a potential violation of
criminal and civil law.” Failing to disclose violates GO
1000.03. J.A. 552. The GO outweighed the EEO Rights
and Responsibility form. The AJ erroneously limited
permissible disclosures to evidence of a completed
criminal act. J.A. 7-8.

Misuse of Government Computer
I testified I was authorized to conduct a
preliminary criminal investigation; I was trained by the

59a
Agency how to run a search of an individual officer’s
reports and activity in RMS and that I was acting in
accordance with training; I was investigating
sergeant for theft stemming from SV’s inflated rating;
and I reported the findings only to my chain of
command. J.A. 1305, J.A. 1307, J.A. 1365, Appx. 13661367, J.A. 1352. This testimony undisputed; thus, the
AJ’s credibility determination is misplaced. The DO
admitted officers are authorized to access RMS when
“working a case.” J.A. 1428.
There is no evidence to support the claim I was
conducting a private investigation of SV; I did not
conduct any investigation into SV. I did not obtain a
benefit from the RMS search. There is no evidence the
DO was aware of the RMS training I received or the
RMS training curriculum. The RMS search sought
confirmation sergeant falsified the DD 2799, or
evidence to clear sergeant of falsification. The DO did
not testify I needed authorization to search RMS
during a preliminary criminal investigation, or that I
needed authorization for each individual search.
Criminal investigations start at reasonable suspicion at
my discretion.
The ‘reasonable person’ would not sustain
conduct unbecoming for disclosing information that
evidenced an inflated rating and theft, when the
Agency’s GO mandated I report it. See J.A. 552. The
‘reasonable person’ would not sustain misuse of
government computer based on DO’s testimony “[I was
not authorized to conduct a private investigation of
SV]”, when it is undisputed I was authorized to conduct

60a
a preliminary criminal investigation of sergeant. The
AJ should not have considered Agency Attorney’s
conjecture as opposed to record testimony and
evidence. Thus, the AJ’s decision violated 5 U.S.C. §
7703(c). Consideration by the full Court is necessary to
secure and maintain uniformity of the Courts decisions.
Whistleblower Protection Act
The panel decision conflicts with prior
decisions of this Court because the Agency did not
show they would have taken the action absent the
disclosures. Kewley v. Dep’t of Health & Human
Servs., 153 F.3d 1357 (Fed. Cir. 1998); Carr v. Social
Security Administration, 185 F.3d 1318 (Fed.Cir.1999).
The PO knew of the October 9, 2016 disclosure
regarding the tampering of the Pentagon facility door
lock, because she cited the disclosure in the proposal.
J.A. 393 1f4. The PO knew of the October 12, 2016
disclosure concerning the tampered Pentagon facility
door lock, because the proposal included it. J.A. 418.
The DO knew of both disclosures because he admitted
knowledge of the October 9 disclosure and had a copy of
the October 12 disclosure with the proposal. J.A. 6, J.A.
418
The October 12, 2016 disclosure is located at J.A.
417-419. In the proceedings below, I noted the
disclosure at Appx739. I cited “AF tab 1 p57-60” (aka
J.A. 417-419), asserting the entire document was
protected. The document contains numerous objective

61a
disclosures, reasonably evidencing modern law theft.
Supra p. 5.
I made the October 9 & 12, 2016 disclosures to
the same officials. J.A. 738-739. Whoever initiated the
investigation leading to the proposal knew of both'
disclosures. The removal was proposed in March of 2017
and sustained in July 2017.
Knowledge and timing by the official initiating
the investigation, the PO, and DO is present. Thus, it is
proven the disclosures contributed to the action. See
Kewley, 153 F.3d 1357. The AJ failed to conduct a Carr
factor analysis. See Carr, 185 F.3d 1318.
Here, the
protected disclosures show
management was not performing its functions, and it
led to diminished security. The normal penalty
sustained by same PO for three charges such as the
ones at issue, absent whistleblower activity, is a 5-day
suspension with no claim of Giglio issue. See infra
Addendum A. In a case where a Pentagon Police
Officer lacked candor in furtherance of a felony theft,
the same PO sustained 30-day penalty with no Giglio
issue. See id.
Remedy
Please re-calendar the case so I can argue the
AJ’s decision should be vacated and remanded with
instructions to determine whether I knowingly made an
incomplete or incorrect statement, or knowing withheld
a material fact, on the grounds invoked by the Agency;

'4%

f
►

\

t

I"

%

62a
reanalyze the remaining charges on the grounds
invoked by the Agency and record evidence as opposed
to attorney conjecture. Provide a definition of
cumulative evidence with instructions to conduct
proper Stone analysis, and conduct a Carr factor
analysis, as necessary.
Sincerely,
/S/James Ryan

•v ■

